                                                            OIG Recovery Act Monthly Report

Monthly Update Report Data (sheet 1 of 5) Version 5.0a
                  Reporting OIG: Amtrak ‐ OIG
              Month Ending Date: 08/31/2010

                                                            Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau        Recovery Act TAFS      Award Type        US Indicator       Total Obligations      Total Gross        Direct or        Ordering TAFS
No.                                                                                                                    Outlays         Reimbursable
      Amtrak ‐ OIG               (69‐0724 2009 \       Formula and Block       Y ‐ US
                                 2013) Amtrak ‐ OIG ‐       Grant
  1                              Recovery Act                                                             $493,345         $463,391
  2
  3
  4
  5
  6
  7
  8

                                                Non-Recovery Act Funds Used on Recovery Act Activity
            Agency / Bureau          FY 2009 Non‐        Total FY 2009      Total FY 2009    FY 2010 Non‐Recovery    Total FY 2010     Total FY 2010 
No.                                Recovery Act TAFS      Obligations       Gross Outlays          Act TAFS           Obligations      Gross Outlays
  1 Amtrak ‐ OIG                 Amtrak - OIG                  $228,694           $228,465 Amtrak - OIG                    $509,446          $453,960
  2
  3
  4
  5
  6
  7
  8




                                                                                                              OIG Monthly Reporting Template 083110Revised.xls Page 1
